<html>
<title> - U.S. POLICY TOWARD SYRIA (PART II)</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                   U.S. POLICY TOWARD SYRIA (PART II)

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 29, 2018

                               __________

                           Serial No. 115-175

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.govinfo.gov
                       
                       
                       
                       

                                 ______
                                 
                    U.S. GOVERNMENT PUBLISHING OFFICE
                   
 33-366 PDF                 WASHINGTON : 2018                                       
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania<greek-l>   TULSI GABBARD, Hawaii
RON DeSANTIS, Florida [until 9/10/   JOAQUIN CASTRO, Texas
    18] deg.                         ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah
VACANT

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA,                     GERALD E. CONNOLLY, Virginia
    California<greek-l>              DAVID N. CICILLINE, Rhode Island
RON DeSANTIS, Florida [until 9/10/   LOIS FRANKEL, Florida
    18] deg.                         BRENDAN F. BOYLE, Pennsylvania
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
ADAM KINZINGER, Illinois             BRADLEY SCOTT SCHNEIDER, Illinois
LEE M. ZELDIN, New York              THOMAS R. SUOZZI, New York
DANIEL M. DONOVAN, Jr., New York     TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
BRIAN K. FITZPATRICK, Pennsylvania
JOHN R. CURTIS, Utah
VACANT
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable James F. Jeffrey, Special Representative for Syria 
  Engagement, U.S. Department of State...........................     5
Mr. Robert Jenkins, Deputy Assistant Administrator, Bureau for 
  Democracy, Conflict, and Humanitarian Assistance, U.S. Agency 
  for International Development..................................    18

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable James F. Jeffrey: Prepared statement...............     7
Mr. Robert Jenkins: Prepared statement...........................    20

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45
The Honorable Theodore E. Deutch, a Representative in Congress 
  from the State of Florida: Material submitted for the record...    46


                   U.S. POLICY TOWARD SYRIA (PART II)

                              ----------                              


                      THURSDAY, NOVEMBER 29, 2018

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
Thank you so much for being with us, our excellent witnesses, 
the audience, and, of course, the members. And usually I would 
not think to start without my ranking member, my good friend, 
Ted Deutch, or without any other Democrats, but they have 
caucus meetings. They are big shots now, so, you know, we have 
to pay attention to them. So we are going to start with the 
staff saying it is okay without them. And whenever they can, 
they are going to pop right in. So thank you so much.
    After recognizing myself and whoever might come for opening 
statements, I would love to recognize all the other members for 
their opening statements, if you can keep them brief. And we 
will then hear from our witnesses. Thank you, gentlemen, for 
being with us.
    Without objection, your prepared statements will be made a 
part of the record and all of the members may have 5 days to 
insert statements and questions for the record, subject to the 
length limitations in the rules.
    The chair now recognizes herself for 5 minutes.
    This hearing is part II of a Syria hearing that we began in 
September. And while it took a bit longer than we had hoped, we 
are very pleased to have two of the administration officials 
most intimately involved with U.S.-Syria policy here today. 
Thank you, both of you.
    Two weeks ago, Ambassador Jeffrey laid out the 
administration's latest plan and objectives for Syria. First, 
the enduring defeat of ISIS. Second, de-escalation of the 
conflict and removal of the Iranian forces. Third, a political 
process under U.N. Security Council Resolution 2254. I am glad 
to have Ambassador Jeffrey in his new position as Special 
Representative for Syria Engagement and for his more active 
approach. This hearing is an opportunity for the administration 
to explain how it plans to achieve those goals.
    With at least \1/2\ million killed, millions more 
displaced, and the security of the United States and our allies 
on the line, the administration owes it to the American people 
to put forth a comprehensive, effective, and, most importantly, 
achievable strategy in Syria.
    After more than 7 years of conflict, I am deeply 
appreciative of our men and women, both in and out of uniform, 
who have contributed so much of their time, of their energy, 
and, in too many cases, their lives in an effort against ISIS 
and for the Syrian people.
    Likewise, too many good Syrians have been taken from us, 
many of whom were simply families trying to escape the 
brutality of both ISIS and the Assad regime. And many of whom 
like the pro-democracy leader, Raed Fares, who refused, despite 
threat after threat, to give into the murderers and terrorists 
who took over his country. Raed unfortunately was assassinated. 
And regime forces continued to prepare an offensive in Idlib, 
the demilitarized zone hanging on by a thread. And chemical 
weapons are being used once again just this past weekend.
    It is more important than ever that we take a more active 
approach, like Ambassador Jeffrey advocates--and we thank him 
for that--to not only prevent another humanitarian disaster and 
more loss of life, but finally to address the root cause of 
this conflict, and that is Assad and his cronies. I am 
concerned that we aren't prioritizing stabilization assistance 
in areas liberated from ISIS, as well as those targeted by 
Assad. This does not mean reconstruction assistance, but it 
does mean the kind of basic services and stabilization needs 
that would allow local communities to be more independent and 
to be more resilient and less susceptible to pro-Assad forces.
    As Hanin Ghaddar testified at part I of our hearings, Iran 
and Assad are ethnically and religiously cleansing Sunni 
communities to create demographic facts on the ground, and if 
we don't start to help Syrian communities resist those forces, 
we are having more areas of Syria ripe for Iran and Assad's 
influence on one side of the spectrum and a resurgent ISIS on 
the other.
    As we learned the hard way in Iraq and Afghanistan over the 
past 17 years, it is not enough to take out the bad guys and 
hope for the best. We must, with our partners, create the 
conditions to ensure the bad guys don't come back. I am 
sympathetic to the challenges of delivering aid in Syria, 
especially when it gets diverted to the very people we are 
trying to defeat. In 2016, the ranking member, Mr. Deutch, and 
I held a hearing with the Government Accountability Office, or 
GAO, and USAID's Office of Inspector General, the OIG, on a GAO 
report that Jerry Connolly and I had commissioned, which found 
weaknesses in our how humanitarian aid programs in Syria. GAO 
had found that most of our implementing partners were not 
assessing the risk for fraud and recommended that USAID and 
State strengthen their own fraud oversight programs, as well as 
those of our partners. At the same time, OIG announced that it 
had opened 25 allegations of fraud allegations. USAID and State 
have made some improvement in the years since, but we continue 
to hear about diversion of U.S. assistance in Syria, most 
notably a recent incident in which according to OIG one NGO's 
employees knowingly diverted USAID-funded food kits to Syria's 
al-Qaeda affiliate. I will say that again because it is really 
mind-blowing. One NGO reported that they had seen knowingly 
diverted USAID-funded food kits being given to Syria's al-Qaeda 
affiliates. Yikes. While USAID correctly suspended this program 
and others, and I am, as I said, very sympathetic to the 
difficulty of mission--nobody is saying that it is easy--we 
cannot allow ourselves to be deterred. It is incumbent upon the 
administration to put the most rigorous and effective 
monitoring and evaluation system in place and then ensure that 
those programs continue. We can't afford to be cutting 
stabilization assistance, never mind humanitarian aid, when 
every other player, from Assad to Russia to Iran to Turkey to 
China is deeply involved and working to shape a new Syria that 
will undermine U.S. security interests.
    So I look forward to hearing from both of you gentlemen 
about how the administration plans to protect U.S. interests in 
Syria and exactly how each of our programs, goals, and 
objectives fit into what I hope will be a strategy for the long 
term and a strategy for success.
    I will now turn to Mr. Kinzinger for opening statements.
    Mr. Kinzinger. Well, thank you, Madam Chair.
    And, again, thank you both for being here. I sound like a 
broken record on these. Sadly, this has been going on for 8 
years with a lot of deaths, including 50,000 children in Syria 
which is just absolutely abhorrent.
    I do want to start with some good news, though, which is I 
think this administration deserves a lot of credit for a very 
improved Syria policy. We spoke a good game in the last 
administration, but I feel like all too often, there was 
inaction. Most notably the red line in Syria what I think was 
the perfect opportunity to basically get rid of Syrian regime 
and do it in a way that would have ended far better what we see 
today in Syria.
    With that said, I think the administration has made it 
clear that there is American and humanitarian interests in 
Syria that we will defend. We don't want to see Iran with a 
post-whatever-goes-on presence in Syria. We have been clear 
about the need to stop the land bridge to Israel and all those 
other things.
    I do want to echo the chairwoman's concern about aid, 
though, as well. I think we need to really take a good solid 
look at how we are distributing the aid. I think the U.N. does 
us a disservice in some of that, in terms of legitimizing the 
regime. I think there are areas maybe we can do aid directly, 
especially areas in communities near U.S. military troops, as 
they starve and look 100 feet away and see well-fed American 
troops, and the opposition uses that, the evil folks use that 
as a propaganda lens.
    So I thank you again both being here, your great service. 
And, Madam Chair, I thank you for your fantastic service. It 
has been a pleasure serving with you, and I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Kinzinger. You can 
have more time if you would like.
    I am so pleased to yield time to Ambassador Wagner for her 
opening statement.
    Mrs. Wagner. Thank you, Madam Chair, for organizing this 
hearing. And I would like to echo the accolades of the 
gentleman from Illinois, Mr. Kinzinger, in saying that your 
leadership, not just on this committee but in Congress, for so 
many years will be sorely missed, and we are grateful for that 
service.
    Before we begin today, I would like to honor the memory of 
Raed Fares, a courageous Syrian activist, who was assassinated 
just last Friday. When war broke out 7 years ago, Mr. Fares 
founded a radio station to give the opposition a voice, a voice 
and highlight the suffering that Assad had inflicted upon his 
own people. I want to share what Mr. Fares said after surviving 
an assassination attempt back in 2014, and I quote: When we 
started our revolution, we broke the barrier of fear. We are 
not afraid. We just want to reach our aims, dignity and 
freedom, and we will get them.
    So I offer my sincerest condolences to Mr. Fares' family 
and the people of Syria who have lost one of their bravest 
voices.
    I thank our witnesses for their time and their service. I 
look forward to hearing more about the work the U.S. is doing 
to advance dignity and freedom in Syria. I thank you, Madam 
Chair.
    Ms. Ros-Lehtinen. A beautiful statement. Thank you so much. 
He certainly was a remarkable human being. We are honored to 
have met him.
    And we want to thank Mr. LaHood. I know he doesn't have an 
opening statement, but he is not a member of our subcommittee, 
but he is very involved in these issues. So we welcome you, Mr. 
LaHood.
    And now I would like to introduce our two incredible 
witnesses for today's hearing. We are delighted to welcome back 
Ambassador James Jeffrey, the State Department's Special 
Representative for Syria Engagement. We were grateful for his 
insight at our hearings in his previous role, and I am very 
glad to see him in this new position. There could be no one 
better than you, Mr. Ambassador.
    In 2010, Ambassador Jeffrey was appointed to the highest 
rank in the U.S. Foreign Service, career ambassador, and has 
served as the United States Ambassador to Iraq, to Turkey and 
Albania, as well as the Deputy National Security Advisor and a 
U.S. Army Infantry officer in Germany and Vietnam.
    Thank you for your service. We look forward to your 
testimony, sir.
    And, secondly, we are delighted to welcome Mr. Robert 
Jenkins, who serves as Deputy Assistant Administrator for a 
terrific agency: USAID. And he works in the Bureau for 
Democracy, Conflict, and Humanitarian Assistance. Previously, 
Mr. Jenkins served as the Director of USAID's Office of 
Transition Initiatives, as well as its Deputy Director and 
Operations Coordinator. Prior to joining USAID, Mr. Jenkins 
designed emergency relief programs with World Vision 
International, a terrific organization, and was a Thomas J. 
Watson fellow.
    Thank you for your service. We also look forward to hearing 
your testimony.
    And as I said, gentlemen, your complete statements have 
been made a part of record. Feel free to summarize and then we 
will ask you some questions. Thank you.
    Ambassador, you are recognized.

     STATEMENT OF THE HONORABLE JAMES F. JEFFREY, SPECIAL 
 REPRESENTATIVE FOR SYRIA ENGAGEMENT, U.S. DEPARTMENT OF STATE

    Ambassador Jeffrey. Thank you very much, Madam Chairwoman. 
It is very good to be back here with you and thank you very 
much for those kind words. It has been an honor to be working 
with you over the years.
    Madam Chairman, you and other members of this committee 
have summarized very well the 7 years of horror brought about 
by the Assad regime enabled by Russia and Iran's maligned 
influence--not just, but particularly--in Syria and what it has 
brought us to in this horrific situation.
    This administration is committed to a way forward. Again, 
Madam Chairman, you have laid it out. I will repeat it for the 
record: We are here, first of all, to ensure the enduring 
defeat of ISIS in Syria, particularly in the area where we are, 
but throughout the whole country. That is important. And that 
is the mission we have given to the U.S. military there.
    Secondly, the United States with all of our elements of 
power is committed to the withdrawal of all Iranian-commanded 
forces from the entirety of Syria and an irreversible political 
process that will change the nature and the behavior of the 
Syrian Government because, without such a change, we are not 
going to see an end to this conflict. This is not regime 
change, per se. It is not related to personalities. It is 
related to the policies of that regime.
    As Secretary Pompeo stated on October 10, these three goals 
are mutually supported. And I would like to spend a few minutes 
talking about how we are going to try to weave these goals 
together to answer the question that you and others have raised 
of what is our policy going forward? First of all, you cannot 
ensure the enduring defeat of ISIS--that is what we 
experienced, including me personally, in Iraq in 2010 to 2012--
or any terrorist organization if you don't deal with the root 
causes of it.
    Well, the root causes of ISIS, mainly in Syria, but to some 
degree in Iraq, have been first of all the horrific behavior of 
the Assad regime against its own people, giving those people no 
other chance but to turn to whomever would take up arms against 
Assad, and that was unfortunately including terrorists.
    Secondly, it is the role of Iran, spreading its tentacles 
around the Arabic Sunni world. This is an outside force that 
creates malignant antibodies if we--that is, the international 
community--do not respond in a proper way. We did not respond 
in a proper way to Iran's encroachment into these areas, so the 
peoples of the area in desperation fell victim to the false 
claims, the false promises of ISIS and other terrorist 
organizations. So we do have to do all three. We cannot just 
rely upon the military defeat of the caliphate right now along 
the Mesopotamia--the Euphrates, along the Iraqi border. We have 
to go after the root causes, and our policy is aimed at that.
    In terms of the way forward to execute these other two more 
political goals of an irreversible political process and the 
removal of Iran, what we are looking at, as President Trump 
laid out in the U.N. General Assembly back in September, is a 
de-escalation of the conflict and a reinvigoration of the 
political process.
    Let me talk first about the de-escalation of the conflict. 
We now have, other than the fighting against ISIS, a near 
cease-fire informal and shaky, throughout the country, with us 
in the northeast, with our partner forces, the SDF, and in Al-
Tanf, in the south, again with partner forces, the MAT, the 
Turks in the northwest. That is about 40 percent of the 
country; almost half of the population is not under Assad's 
control. They are either in those areas, or they are across the 
border. And we are going to work with the U.N., work with the 
Russians, work with the international community to, to the 
extent we can, solidify these ceasefires. That is called for in 
the relevant U.N. Resolution 2254 and then try to use that to 
leverage the political process. The political process has not 
done well, including, today, the last effort to try to form a 
constitutional committee of opposition, government, and neutral 
representatives failed in a meeting held by Russia, Iran, and 
Turkey in Astana, Kazakhstan, but we are not going to give up 
on that path forward. There has to be fundamental change in the 
way that this regime works with its own people to avoid the 
threat that the regime and the state make toward its own 
population and to our allies and friends in the region; that is 
first and foremost. Israel, but also Jordan, Turkey, Iraq, 
Lebanon, and other states. This is an international situation. 
We have five countries, outside states, with military forces 
right now in Syria: Iran, Russia, the United States, Turkey, 
and the Israeli Air Force. There is a real danger of 
collisions, military actions between the two, as we saw with 
the shoot down of Russian IL-20. And so the situation is quite 
dangerous in terms of state-to-state conflict. We are working 
to avoid that while at the same time building on the cease-fire 
to set forth a legitimate political process that is worthy of 
the name of the U.N. vision for Syria being at peace with 
itself and at peace with its neighborhood.
    Thank you very much.
    [The prepared statement of Ambassador Jeffrey follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                     ----------                              

    Ms. Ros-Lehtinen. Thank you very much. That was an 
excellent statement.
    And, Mr. Jenkins, we have been joined by our ranking 
member, Mr. Deutch, who--and it shows you the high level of 
interest he has on this issue because we know that, on your 
side, you have got a lot going on and competing time 
restraints. So, thank you, Mr. Deutch, for joining us. And I 
would love to have you give your opening statement.
    Mr. Deutch. Great. Thank you, Madam Chair. Thanks for 
calling the hearing.
    Thanks, Ambassador Jeffrey and Mr. Jenkins, for appearing 
before the committee today.
    Mr. Jenkins, thanks for the difficult work that USAID does 
to address the humanitarian crisis in Syria, and we appreciate 
that.
    Ambassador Jeffrey, you are no stranger to the committee. I 
was encouraged by your appointment as Special Representative 
for Syria Engagement, and I am hopeful that you will lead the 
administration to finally solidify a comprehensive strategy for 
Syria. Thus far, the administration's failure to really codify 
what we aimed to accomplish and how we plan to accomplish it 
has been concerning to say the least. I am sorry that I got 
here just after your comments, but I know we will be spending a 
lot of time together going forward.
    In the past year, we have Iran expand its military 
footprint, getting closer and closer to Israel's border. And 
while I am encouraged by the progress against ISIS, which has 
seen the group lose tremendous amounts of territories since 
mid-2015, the administration hasn't made tangible efforts to 
solidify strategy to ensure that ISIS doesn't resurge after 
conventional fighting is concluded, nor does it seem the 
administration has a plan for our future relationship with the 
Syrian Kurds, whose partnership has resulted in the most 
dramatic losses for ISIS in Syria.
    The administration's missile strikes against the Assad 
regime, while something I support, lack a strategic backend to 
actually alter Assad's behavior and I worry appear thus just as 
empty gestures. Assad continues to break international law and 
commit human rights crimes on a massive scale.
    The administration has stated that it wants to find peace 
diplomatically through the Geneva process, which in the last 
several years has failed to bring the Syrian conflict to an 
end. The administration has also stated it wants Syria to no 
longer be led by the brutal Assad regime, but we haven't seen 
any evidence that the administration has a plan to achieve 
these goals. The State Department has stated the U.S. will not 
commit itself to full reconstruction until there is a credible 
and irreversible political process underway to end the crisis. 
However, after the regime, Iran and Russia have routinely made 
a mockery of international proceedings to lessen the suffering 
of the Syrian people. I have little confidence in the process.
    The tyrannical Assad regime has played the international 
community for a fool by hiding behind the so-called de-
escalation zones that allow him to dedicate military resources 
to one front before breaking the agreement to bomb civilian 
targets in other zones. We have sat by watching as he continues 
to use chemical weapons, cluster munitions, barrel bombs, 
starvation, and other horrendous illegal measures to break 
civilian enclaves and crush opposition parties. The 
humanitarian crisis in Syria continues to be wrought with 
uncertainty. In Idlib, the sporadic fighting between the pro-
regime forces and opposition groups threatens an all-out 
assault on a region with a large number of internally displaced 
civilians with nowhere else to go. A full regime assault on 
Idlib threatens to cause the largest humanitarian crisis of 
this entire conflict.
    In June, I wrote to the Secretary of State asking him to 
prepare to mitigate such disaster and to account for why the 
administration froze $200 million in stabilization funds, which 
included funding for Radio Fresh, an independent radio station 
which countered the extremist propaganda right in northwestern 
Syria.
    Last week, the founder of Radio Fresh, Raed Fares was 
killed, striking a blow to those of us who support counter-
extremism and pro-democracy efforts in Syria. To me, and I know 
too many of us on this committee, cuts to programs like this 
further demonstrate the lack of a plan to address ISIS' long-
term threat. And having had the opportunity to spend time with 
Raed and to hear him speak about the number of times he was 
able to avoid the attacks on him, the news was particularly 
difficult for us to take.
    This pull back in stabilization assistance once again cedes 
American leadership. Though the Russians will be more than 
happy to fill that void--I know the administration will also 
say that Saudi Arabia is picking up the funding commitment, but 
the question is, can we guarantee that we will be able to use 
that funding to advance what we believe are the best strategic 
interests for our own country? Congress has questions. We have 
had questions, and we need adequate answers to those questions.
    The President has repeatedly said that we are in Syria to 
defeat and destroy ISIS. Now the administration talks of 
American troops staying in Syria until Iran leaves. How do we 
plan to achieve a complete Iranian withdrawal and avoid any 
direct military confrontation with Iran? Do he we expect Russia 
or Assad to ask Iran and its proxies to leave? What will happen 
to the stagnating peace process in the wake of envoy Staffan de 
Mistura stepping down?
    Finally, I would note that the House has taken meaningful 
process push the political process along by passing 
legislation, the Caesar Syrian Protection Act, authored by the 
ranking member, Mr. Engel, that would give the administration 
tools to go after those that support the Assad regime and the 
ability to waive sanctions if meaningful negotiations are 
taking place and violence has ceased. I hope that the Senate 
will finally pass this bill before Congress adjourns.
    Ambassador Jeffrey, Mr. Jenkins, I want this to be a 
productive hearing. I am sorry that my colleagues can't be 
here, except for Mr. Schneider, who I am grateful has arrived. 
I hope today--well, I know today will shed light on how going 
forward the administration is going to address what has been to 
date the lack of a real Syria policy. And I hope we will get 
the opportunity to continue this conversation into the new 
Congress.
    Thanks again to our witnesses for being here. And thank 
you, Madam Chairman, for letting me present.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch. As 
always, you make excellent points.
    And now we are pleased to hear from Mr. Jenkins. Thank you.

       STATEMENT OF MR. ROBERT JENKINS, DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN 
     ASSISTANCE, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Jenkins. Thank you, Chairman Ros-Lehtinen, Ranking 
Member Deutch, and members of the subcommittee. Thank you for 
the opportunity to speak with you today.
    As you have already heard, for more than 7 years, the 
regime of Bashar al-Assad has raged an unrelenting campaign of 
terror against its own civilians, including the use of chemical 
weapons. In 2014, the emergence of ISIS exasperated the crisis, 
imposing brutal tactics, including beheadings and torture. 
Nearly 11.3 million people are displaced within Syria or have 
fled to neighboring countries as refugees. Nearly the entire 
population of southern Florida. Through it all, United States 
remains committed to the Syrian people. Our assistance is 
reaching 5 million Syrians every month, 4 million Syrians 
inside across all 14 governance, and over 1 million refugees in 
neighboring countries. Using backpacks, small trucks, drops 
from airplanes, even donkeys, USAID works with partners who 
will do whatever it takes to get the job done.
    Flexibility is key to our response. USAID food assistance 
includes both foot stuffs, such as wheat and rice, but it also 
includes ready-to-eat rations for people on the move. Our 
assistance to refugees also includes vouchers so that they can 
buy food in local markets.
    Since the conflict started, nearly 75 percent of Syria's 
medical doctors have left the country, leaving a profound 
healthcare gap. At great risk to their own safety, USAID 
partners have stepped in to fill the void. Last year alone, our 
partners responded to the health needs of almost 5 million 
people inside Syria. Their heroic efforts and courage have 
saved countless lives.
    As ISIS has been driven out of areas in northeast Syria, 
people have started returning home. In Raqqa, 80 percent of the 
buildings are either entirely destroyed or very seriously 
damaged and half of the city's water infrastructure is in need 
of rehabilitation. Here, the U.S. is providing safe drinking 
water and food, distributing shelter and other relief supplies, 
and providing healthcare services.
    I saw the impact of our assistance firsthand in January 
when I was able to travel to Raqqa with our Administrator, 
Administrator Mark Green, and U.S. CENTCOM Commander Joseph 
Votel. It was chilling to drive around Naem Circle, which 
became the focal point of the Syrian Democratic Forces' victory 
celebrations after Raqqa was liberated. Just 3 months prior, 
the spikes on the fence around the fountain where people were 
celebrating had been using to display the heads of ISIS 
victims. To sit there, stand there, look at that, was chilling.
    Despite our best efforts, the single greatest factor 
limiting the reach of our humanitarian assistance is access. 
The Syrian regime has now regained control of the southwest. 
After that, they cut off the cross-border humanitarian 
operations from Jordan, a major blow to our response efforts. 
Similarly, aid groups struggle to reach people living in 
territory control by terrorist organizations.
    Despite our best efforts, there have been failures which we 
have sought to learn from. USAID has put risk-mitigation 
programs in place to reduce the possibility of fraud, waste, 
abuse, and the diversion of assistance. We place the highest 
priority on ensuring that taxpayer funds are used wisely, 
effectively, and for their intended purpose. Humanitarian 
assistance alone cannot provide a solution to the conflict. But 
it is saving lives and helping to alleviate the suffering of 
everyday people throughout the region. The United States 
remains committed to a strong humanitarian response, to support 
the Syrian people and Syria's neighbors.
    Thank you for your time. And in particular, Madam Chairman, 
I would like to thank you on behalf of USAID for your service 
and your commitment to foreign assistance. Thank you. I look 
forward to taking your questions.
    [The prepared statement of Mr. Jenkins follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                       ----------                              

    Ms. Ros-Lehtinen. Thank you so much.
    I was very moved by your voice when you were speaking, and 
I can see how this impacts the folks who are trying to make 
things better, as well as, of course, the people of Syria 
themselves. But thank you. I can see that you are a devoted 
public servant who feels in his heart the heart break that is 
going on in that region.
    And, Ambassador Jeffrey, as I said in my opening statement, 
I am so very glad to have you in this new position. I 
appreciate your more active approach in Syria.
    Now, in your testimony, you stated that your confidence in 
Russia's promise was weakened after the violation of the 
southwest de-escalation zone this summer, an area agreed to by 
President Trump, and that the violation had consequences. But 
as far as I know, there have been no costs to Russia to date, 
despite two State Department warnings telling Russia not to 
violate the zone. Could you explain why the State Department 
issued these warnings, when in the end there were no costs when 
the zone wasn't enforced? And what cost against Russia is the 
administration prepared to make should Russia decide to violate 
another de-escalation zone?
    Ambassador Jeffrey. Thank you very much, Madam Chairman. 
The U.S. had negotiated a deconfliction agreement with Russia, 
as you pointed out, at the Presidential level in Da Nang a year 
ago. The Russians did not adhere to their commitments under 
that agreement and they not only allowed but they supported the 
influx of Syrian forces into the southwest with humanitarian, 
military, and other consequences.
    The administration issued initial warnings of a diplomatic 
nature. Absent military force for which there was no legal 
authorization, the administration was not able to take further 
action directly at that point. What this led to directly was a 
series of decisions by the administration. First of all, to 
continue our presence in Syria against ISIS because that is 
what they are there for, that is what the authorization is, but 
to ensure that we don't turn that mission over to anybody else 
until it is finished, particularly anybody else who is liable 
to abuse--the people in those areas abuse our partners and 
everything else. So that is one decision. Our second decision 
was to strengthen the absolute commitment we have to block any 
reconstruction assistance to the criminal callous Assad regime 
until that regime starts contributing to the political process. 
And then, thirdly, to play a much stronger role in the 
diplomacy designed to achieve that. And I will cite a success 
that we had, and that is Idlib. The last of the deconfliction 
zones, which the Turks had negotiated originally with the 
Iranians and the Russians almost a year ago, on the 7th of 
September, Putin humiliated President Erdogan by saying there 
would be no cease-fire. Ten days later, Erdogan got a cease-
fire agreement in writing from Putin in Idlib that is still 
holding. One reason for the change was President Trump's direct 
and dramatic intervention in that, not only by saying we would 
take very strong action if chemical weapons were used in any 
offensive--and you made that very, very clear, and we worked 
with our allies to ensure this wouldn't be America alone--but, 
secondly, the President stated publicly that this would be a 
reckless escalation of the conflict, and he kept a drum beat of 
pressure on Russia both publicly and privately.
    Ms. Ros-Lehtinen. If I could interrupt. So are you saying 
that basically it was a diplomatic arrangement? That there was 
no teeth to that--were it to be violated, which it was, there 
was no agreement about what penalties could be imposed and that 
we no longer trust Russia to keep its promise?
    Ambassador Jeffrey. We no longer will rely only on 
diplomatic measures to hold to agreements, Madam Chairman.
    Ms. Ros-Lehtinen. Now you did not mention Hezbollah by 
name, but you did refer to Iranian-commanded forces. Can you 
clarify for us, do you and the administration, do you consider 
Hezbollah one of these Iranian-commanded forces? And is its 
removal from Syria a stated U.S. goal?
    Ambassador Jeffrey. It is a stated U.S. goal. When we say 
``Iranian-commanded,'' we were thinking specifically of 
Hezbollah. They take pride of place of all of the awful outside 
forces that have contributed to chaos.
    Ms. Ros-Lehtinen. Now is there any reason why that exact 
word--that term is not used?
    Ambassador Jeffrey. There are so many----
    Ms. Ros-Lehtinen. I just want to make sure that it is an 
umbrella term.
    Ambassador Jeffrey. It is an umbrella term.
    Ms. Ros-Lehtinen. Okay. I know that you share my feelings, 
and everyone thinks that Assad is the root cause of the 
conflict in Syria. And you said elsewhere the Assad regime 
produced ISIS and that the regime's behavior will lead to its 
reemergence. And with that in mind, will you commit or will the 
administration commit to Assad not running in a future 
election? Are we going to have an official position on that?
    Ambassador Jeffrey. We do not have an official position on 
any personality other than that we think Assad is exactly the 
worst person to rule any place. What we are trying to do in 
part, Madam Chairman, as this committee has indicated in many 
instances it wants us to do to, to build up an international 
coalition. Rightly or wrongly, the bulk of the international 
community is not going to follow us in regime change efforts 
because there is a long history of them, frankly, not turning 
out very well. So what we are looking for is a change of 
behavior, a dramatic drastic change in behavior by the Syrian 
Government to be a very different government to its own people 
and, as I mentioned, to its neighbors and the one we have 
today----
    Ms. Ros-Lehtinen. Is it realistic, Mr. Ambassador, to think 
the Syrian people would want Assad to run again? And how could 
an election possibly be free and fair if the Assad regime is 
still in place?
    Ambassador Jeffrey. The relevant U.N. Resolution 2254 tasks 
the U.N.--this is one thing the U.N. is good at--for running 
free and fair elections, including among the diaspora and 
everybody that isn't under Assad's control. That is nearly half 
the population. We cannot imagine the bulk of that population 
voting for that individual if there is free elections. So, if 
you are wondering what the solution to Assad is, it is to carry 
out U.N. Resolution 2254.
    Ms. Ros-Lehtinen. Thank you very much.
    I have further questions for you, Mr. Jenkins, but I want 
to yield time to our ranking member, who will soon be chairman 
of this committee, Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman.
    In a letter from the State Department in September, which I 
would like to enter into the record----
    Ms. Ros-Lehtinen. Without objection.
    Mr. Deutch. The President has been clear that we are 
prepared to remain in Syria until the enduring defeat of ISIS, 
and we remain focused on ensuring withdrawal of Iranian forces 
and their proxies.
    Ambassador Jeffrey, how far will the administration go to 
remove Iranian proxies from Syria?
    Ambassador Jeffrey. First of all, that is a diplomatic 
goal, Mr. Ranking Member. That is not a military goal of our 
military forces now; it never has been. Our military forces are 
present in Syria to ensure the enduring defeat of ISIS. We 
believe one element of that is to work on the diplomatic track 
to get foreign forces out that have entered since 2011. That 
would include the Iranian forces because they are a particular 
problem both for the situation inside of the country and the 
security of Israel, Turkey, and Jordan.
    Mr. Deutch. So, if military force is not an option, how 
does the administration plan to use the diplomatic process to 
achieve that goal?
    Ambassador Jeffrey. Well, first of all, to put the regime 
under as much economic pressure through the denial, not only by 
us but by the rest of the international community, of 
reconstruction. The regime is sitting on top of a big pile of 
rubble in Aleppo and much of the country. Secondly, to impose 
ever tougher sanctions on the regime and on those people that 
aid and abet it. And here we will be asking and looking for 
help from Congress in this regard.
    Mr. Deutch. What is the long-term strategy for the areas in 
northeastern Syria currently held by the SDF, especially as we 
believe the regime attempts to retake that territory?
    Ambassador Jeffrey. First of all, we think that any 
intervention by anyone into the northeast as we continue our 
operations against Daesh or ISIS would be of great concern, 
particularly placing American troops at risk. As you know, sir, 
there have been several attempts to penetrate that near Deir 
ez-Zor, for example, and we have responded using our inherent 
right of self-defense.
    What we are hoping to do is help stabilize that area and 
then ensure that that area becomes integrated into a new Syrian 
body politic. We are not trying to create a separate entity. We 
are not going to change the territorial integrity of Syria. We 
are trying to for the moment stabilize that area, keep ISIS 
out, keep the situation peaceful, and work to use that as part 
of the leverage to try to push the political process forward.
    Mr. Deutch. So let me go back to Iran and its processes for 
a second. What role does Russia play? You talked about 
sanctions. We are going to impose sanctions, and we are going 
to ratchet up the pressure. I understand that. What role does 
Russia play in this? What discussions have we had? What 
discussions are ongoing? To what extent will they be helpful in 
helping to push Iran out, or will they hinder our ability, 
despite our efforts to ratchet up the pressure to push Iran 
out?
    Ambassador Jeffrey. We talk to Russians at almost every 
level, the President spoke at length with President Putin at 
Helsinki summit about Syria. And we have at various levels--
some of them confidential, some of them more open, such as at 
the U.N. General Assembly in the Security Council. We have 
exchanges very, very frequently with our Russian interlocutors 
in addition to the deconfliction conversations our military has 
with the Russians as well, which is important. So there is a 
very rich exchange of at least positions. We have made it clear 
to the Russians that there is no solution to this conflict as 
long as the Iranian forces are there. What do we use as 
leverage? We point out that all foreign forces who have entered 
since 2011--that would not include the Russians who have been 
there for decades--need to leave the country sooner or later as 
part of a solution negotiated by the U.N. and supported by the 
international community. That is a benefit to everybody 
involved, and absent that, we are going to sit in the situation 
we are right now.
    Mr. Deutch. Ambassador Jeffrey, that would include the 
Russians. And I appreciate the rich exchange of ideas. Those 
are our ideas. What ideas do we hear back from the Russians?
    Ambassador Jeffrey. The Russians, first of all, want to 
secure their own interests there, which begin with bases. 
Secondly, they want a friendly government. What they have not 
yet done, and you are absolutely right, is define to us how 
they can achieve their goals while also meeting our goals, 
which we have made very clear to them. This is still an ongoing 
process, and we haven't reached that point yet.
    Mr. Deutch. Well, I am glad that you are now part of this 
process, Ambassador Jeffrey.
    Madam Chairman, before I yield back, I know that it is your 
desire, and I hope that we are able to have one more hearing 
before we finish, but in the event that the timing does not 
permit that, I will use this opportunity to just quickly say, 
quickly, that, for those of us who--not just those of us who 
serve on the committee, but for those of us who pay attention 
to foreign affairs, I think it is clear that if you are a 
dictator or a despot or a brutal regime anywhere in the world 
that violates human rights and supports terror, that for these 
past decades now and certainly for the time that my chair has 
been sitting as chairman of this committee and chairman of the 
Foreign Affairs Committee, they understand that there is no one 
more committed to standing up for American values and American 
principles as the chairman. And a lot of people--I could go on 
and on--there will be opportunities for that, and I will look 
forward to embarrassing you on those opportunities. I will just 
simply say that, for those who look at the United States House 
and are fond of pointing out the inability of Members of 
Congress to work across the aisle to accomplish things on 
behalf of the American people, there is no more important work 
that we do here than standing up for the values we hold dear--
and there is no one on either side of the aisle who best 
represents that and stands as the model of working with anyone 
and everyone who is willing to fight for those basic rights and 
American values than our chairman.
    And I thank you and yield back.
    Ms. Ros-Lehtinen. Thank you so much. You are a mensch. 
Thank you so much, Ted. He is my friend. Thank you. And we 
don't need to continue with that.
    Mr. Kinzinger is recognized. And you already said it.
    Mr. Kinzinger. Well, no. I think it is important to note 
that sometimes you tick us off pretty bad too. You know, there 
are days where we are kind of miserable and in a bad mood 
around here. And it always really makes me upset to see you 
smile no matter what. It is like, could you just be in a bad 
mood once? But you never are, so thank you for that.
    As I a mentioned earlier in my opening statement, this 
administration and, frankly, the prior administration inherited 
a really bad situation in Syria for which there are no easy 
answers. I do think that one of solutions we need to do is to, 
frankly, target Assad, I think target his military. I think 
that can compel Assad and Russia to the table to a solution. I 
understand that may not be on the table. I am not sure the 
internal discussions, but I think that would actually be the 
fastest way to compel the Russians and the Iranians and the 
Syrians to the table.
    Let me just ask you really quickly, Mr. Ambassador, has the 
administration taken a position on the Ceaser Act, the Caesar 
Civilian Protection Act?
    Ambassador Jeffrey. I do not believe we have taken a 
specific position on that particular piece of legislation. You 
know, it is complicated for us to do that on a particular piece 
of legislation. More generally, we believe that the more 
sanctions we can impose on that regime, particularly in key 
strategic areas that serve their military, that serve the 
regime directly, all the better for our entire policy and if 
this House can help in one way or the other, without endorsing 
specific legislation, that is our position.
    Mr. Kinzinger. Well, I would like to ping-pong that back to 
you. We passed the Syrian Act, the Civilian Protection Act 
here. It is in the Senate. As I know, it has been hotlined, but 
there is at least one Senator with a more exotic view on 
foreign policy than most people have that is trying to slow 
that up. But I think the administration is probably the last 
hope to get that through. So you don't have to comment on that, 
but I think it is something worth noting because we have a very 
limited time, and that would be our best shot.
    Given that there has been a lot of attention with Saudi 
Arabia and their actions with the journalists, which I think 
the actions were abhorrent, but just this week we learned the 
fate of Layla, a Chicago-born aid worker helping displaced 
persons in Eastern Ghouta. Layla disappeared over 2 years ago 
where she was detained and tortured for 8 months before being 
transferred to a military court. This week, our worst fears 
were confirmed. She was tortured and executed by Assad's forces 
on December 28th, just after Christmas, 2016. We know that 
Bashar al-Assad and his Russian and Iranian backers have 
committed countless war crimes like those endured by Layla, and 
yet we haven't acted on that. And that is where I want to 
begin.
    With the news of Layla's death, she became the first 
American citizen that we know of to be killed by the Assad 
regime. And this is an incredibly important point to note: 
Whatever response the administration decides to take will shape 
how the regime and its backers treat other Americans in their 
custody now or potentially in their custody in the future.
    Mr. Ambassador, how does the administration plan to respond 
to the killing of an American on Syria soil?
    Ambassador Jeffrey. We can confirm that she was--she is 
deceased and that this was under Syria Government hands. We are 
looking into that. This is something that, just like you, we 
take very, very seriously. If I can change my testimony from a 
moment ago, we do support the Caesar Act.
    Mr. Kinzinger. Great. Thank you for clarifying the 
administration's support of that. That is I think very 
important. Thank you.
    Do you know the status of any other Americans currently 
being held in Assad's torture and detention facilities?
    Ambassador Jeffrey. There are various inquiries underway. 
There are reports. None of these I can talk about in an open 
session.
    Mr. Kinzinger. Understood. We all know that there are four 
broad instruments of power the United States can use: 
Diplomatic, information, military, and economic. I think we 
have used a number of those well. One that I think is important 
to note is information. Earlier this year, the administration 
decided to withdraw all assistance from northwest Syria, and 
some of those funds have been reinstated, which we appreciate, 
but others have been ignored. As was mentioned earlier, Radio 
Fresh, which I did an interview on a number of years ago, was 
run by a man that I had the pleasure to meet, Mr. Fares. The 
programming was centered around anti-extremism messaging, and 
it reached 2 million of the most at-risk individuals for 
radicalization. Unlike northeast Syria, where we have a 
military presence, U.S. stabilization aid is our only leverage 
to push back against the radicalism in the northwest. And last 
Friday, he was assassinated by the same terrorist groups he 
dedicated his life to speaking out against. He was a U.S. 
partner and one of our most effective bulwarks against the rise 
of al-Qaeda in Syria. How do you think, Mr. Ambassador, the 
United States can learn from his assassination so that critical 
programs in Idlib can get renewed U.S. funding?
    Ambassador Jeffrey. Mr. Congressman, this is one of my top 
priorities, is to review, not just that particular program, 
Radio Fresh, but also the aid to the White Helmets, which we 
were able to restore temporarily, and several other programs. 
You know the back story, I am sure, when we suddenly lost all 
American assistance to the northeast where we have troops and 
contact, we shifted whatever money we could into that area. We 
are now looking at the consequences of that, particularly with 
the situation around Idlib, which is of strategic concern to 
us, just as much as the northeast. We will have to get back to 
you on it, but it is something we take very, very seriously.
    Mr. Kinzinger. And I believe you do, and thank you. Nobody 
wants to waste money, but we want to spend it effectively. My 
time is up, and, Mr. Jenkins, while I don't have a question for 
you--and I apologize for that--I want to say thank you for your 
hard work too and everybody that works for you. I think many 
times the work that you and your folks do gets overlooked, but 
it is extremely important. So thank you and please pass that 
on. And for both of you, thank you for being here.
    Ms. Ros-Lehtinen. Amen. That is true.
    Thank you, Mr. Connolly.
    Mr. Connolly. Thank you.
    Ms. Ros-Lehtinen. Thank you for the little chocolates.
    Mr. Connolly. Absolutely. Thank you for all of your service 
and your friendship. We will miss you a great deal.
    Ambassador Jeffrey, my understanding is there is somewhere 
between 25,000 and 100,000 Iranian-supported troops, including 
Hezbollah, in Syria? Is that--I mean, that is a pretty wide 
range, but is that estimate close?
    Ambassador Jeffrey. You are almost certainly--somewhere in 
there.
    Mr. Connolly. Yeah, well--but still, that is a lot of 
people. And our goal is complete removal of Iranian and 
Iranian-backed troops in Syria. Is that correct?
    Ambassador Jeffrey. That is correct.
    Mr. Connolly. Let's take the upper end for a second. Let's 
just theorize it is 100,000, closer to that than 25,000. How in 
the world do we propose, given our limited footprint in Syria 
and, frankly, our limited influence historically in Syria, how 
do we propose to remove 100,000 very determined troops in 
foreign soil that is not friendly to the United States?
    Ambassador Jeffrey. Boy, is that ever a good question. We 
don't plan on doing it through military forces----
    Mr. Connolly. By the way, Madam Chairman, you heard that 
was a good question, and do you know why?
    Ms. Ros-Lehtinen. Why?
    Mr. Connolly. Because I worked for the Senate Foreign 
Relations Committee.
    Ms. Ros-Lehtinen. You know, I had heard that. I don't know 
if many Members know it.
    Mr. Connolly. I am sorry. That is an inside joke. I am 
sorry.
    Ambassador Jeffrey. That is fine. The more discussion, the 
less time I have for your very good question.
    Mr. Connolly. Give us your magic solution.
    Ambassador Jeffrey. Basically, this has to be done through 
diplomatic effort. I can see the rolling of eyes, but I was 
personally involved in the rollback of 25,000 Russian troops 
from Georgia in 2008. We saw the withdrawal of the Israeli Army 
from the Sinai after 1973. It is perfectly conceivable and 
quite normal in international relations for peace processes to 
lead to settlements that lead to withdrawals of foreign forces 
from somebody else's territory.
    Mr. Connolly. So, if I understand your answer, it is not 
that we have some detailed plan to do it; our answer is, within 
the context of some kind of overall peace settlement, that 
would be a provision.
    Ambassador Jeffrey. That would be an absolute requirement. 
But we sweeten it by saying our troops will eventually leave. 
The Turkish President Tayyip Erdogan has said when there is a 
political process and elections under 2254, the U.N. 
Resolution, his troops are ready to leave. The Israelis tell us 
that they only carry out military operations because the 
Iranians are there. So you can see the elements of a possible 
solution.
    Mr. Connolly. The Turks previously had a goal of the 
removal of Assad, kind of a sine qua non for that. Has that 
changed, or is that still their goal?
    Ambassador Jeffrey. I have a tough enough time sometimes 
answering questions on U.S. foreign policy. Turkey, even though 
I spent 9 years there, is even more difficult, but I do not 
believe that that is the official policy of the Turkish 
Government. What I can assure you is the Turkish Government 
sees existential dangers coming from multiple sources within 
Syria, and one of them is certainly the current Syrian 
Government.
    Mr. Connolly. I believe it had been a cardinal part of 
their policy vis--vis Syria. In fact, it was a bit of a bone of 
contention between us and Turkey. But all right. You said 
multiple concerns. One of those concerns is the role of the 
Kurds, our allies, militarily, in trying to win back territory 
in Syria from folks who were certainly hostile to our Western 
values and interests. How do we reconcile our relationship with 
Kurds who have fought and won on Syrian territory with the 
Turks' concern--and I mean active concern because they put 
troops into Syria, not to overthrow Assad as much as to counter 
the Kurdish influence, our ally. How do we reconcile that 
difference?
    Ambassador Jeffrey. The Turks have actually used troops 
against the regime. They used it against ISIS, and they have 
used it against the Kurds in Afrin. But first of all, it is----
    Mr. Connolly. Excuse me. I wasn't denying that. I was 
pointing out they actually introduced troops for this specific 
purpose. I didn't mean to say there weren't other purposes but 
that is how seriously they take it.
    Ambassador Jeffrey. The Turks are very concerned about 
this. We understand this because there are various ties between 
some of the Kurdish organizations that we deal with, 
specifically the PYD, YPG, which is an element of the SDF, the 
Syrian Democratic Forces, which is the military partner that we 
are working with against ISIS, and we understand and have daily 
exchanges with the Turks on this. Most importantly, we have a 
major activity with the Turks going on in the Manbij region to 
the west of the Euphrates, where we are working to encourage 
the PYD and the YPG to leave that area, and that is proceeding 
I think all in all quite well with the Turks. We have other 
concerns with them. But, again, our relationship with not just 
the specific Kurdish party but other parties are tactical and 
transformational--not transformational, but tactical and 
temporary in order to secure a goal that we both share, and 
many others do, which is the defeat of ISIS. We are not picking 
winners and losers in terms of any political movements inside 
Syria. The way we will try to help all Syrians, whether they 
are in the northeast or elsewhere, is to find a political 
process that allows a better government, democratic elections, 
and peace that everybody can profit from. It is just like we 
work with groups such as the Kurdish KDP in the Shia Arab 
Islamic Revolution before 2003 in Iraq. But when we went into 
Iraq, we didn't support that political party or this political 
party. We just tried to work with all Iraqis to help provide a 
constitutional democratic system, and this is what we are 
working in the international community to do for all Syrians.
    Mr. Connolly. Well, thank you. My time is up. I would just 
say one must be very careful about preserving the integrity and 
good name of the United States. It is one thing to decide that 
we are not taking political sides; it is another to abandon an 
ally that put blood on the table when they were the only ones 
willing to do it. And the Kurds fought and won territory. And 
it is a fine line between saying, well, once we get the peace, 
you are a party at the table, but you are not the only party or 
a favorite party; and it is quite another to actually abandon 
them because of outside pressure from another country with a 
different agenda.
    Thank you.
    Ms. Ros-Lehtenin. Thank you, Mr. Connolly. Thank you so 
much.
    Now we are pleased to hear from Ambassador Wagner.
    Mrs. Wagner. Thank you, Madam Chair.
    Mr. Jenkins, as you noted, conflict situations put women 
and girls at a much higher risk of violence and exploitation. I 
appreciate the ways in which USAID is working to protect this 
vulnerable population.
    What challenges has USAID come across in its work to 
prevent gender-based violence, and how can Congress help you 
overcome these issues?
    Mr. Jenkins. Thank you very much for your question. And, 
yes, sadly, it is a fact of modern warfare that the victims 
that are hurt the most are women and children. And the crisis 
that we are looking at and talking about right now in Syria, 
many could say it is a protection crisis for all of the 
vulnerable people, IDPs, multiple times over, the number of 
widows and orphans is astounding in that population. And we are 
very dedicated to making sure that every one of our 
humanitarian assistance programs integrates protection for 
women and children into those--that program.
    But also, last year, we spent about almost $28 million on 
programming specifically to protect women and children. 
Sometimes it is as simple as creating safe spaces for women and 
girls to be alone and away from other parts of the community, 
involves training healthcare workers, training educators, 
training teachers for the--what to look out for for people that 
might be victims of sexually-based violence; it is working with 
healthcare workers on how you treat someone who has been a 
victim of specially--of sexually-based violence and actually 
the provision of different equipment and materials for that.
    One of the challenges that we have had in this sector is 
there--a lack of people that are Syrian in Syria who have been 
trained to handle these sorts of issues before. So because 
almost everyone--I would like to stress this----
    Mrs. Wagner. The training would be some way the Congress 
could in terms of resources and such in this arena?
    Mr. Jenkins. Well, we are very thankful for the resources 
that Congress has given and continues to give us to allow these 
programs to happen. It is not necessarily something that money 
can solve.
    Mrs. Wagner. Right.
    Mr. Jenkins. It is a time issue, and it is about just not 
having enough people trained in Syria that have those skills. 
Over time, we have been able to build a base for that, but I am 
happy to ask my team and see if there is any actual acts that 
they have that need help.
    Mrs. Wagner. Please do. Please do. We would be most 
interested.
    Ambassador Jeffrey, the United States cannot be implicit in 
supporting the murderous Assad regime. How do we approach 
supporting civil society and the many people in the opposition 
across the country if we restrict our stabilization funding?
    Ambassador Jeffrey. Once again, we believe in stabilization 
programs where we have our own forces on the ground, just as we 
believe in humanitarian assistance, which we have, not just for 
people outside of Syria, but also I think in 14 provinces. We 
have various partners that deliver aid, so various kinds of aid 
are underway.
    The specific issue of stabilization funding. The President 
took the decision, and I support that decision, of course, to 
try to get other countries to provide funding to reinforce what 
we are doing on the ground in the fight against ISIS where we 
bear 99 percent of the on-the-ground Syrian combat role, our 
advisory role, and we have been fairly successful so far. We 
have collected about $300 million in the last 9 months. That 
money is now being deployed by teams----
    Mrs. Wagner. Good.
    Ambassador Jeffrey [continuing]. That Mr. Jenkins and I are 
working with, and we will be trying to find further funding 
from the international community, which has as much of an 
interest in peace in Syria as we do.
    Mrs. Wagner. Speaking of the international community, I 
understand that the alternate peace talks that Russia, Iran, 
and Turkey are hosting in Astana are a source of consternation 
to those of us who wish to see the unbrokered talks succeed.
    Ambassador Jeffrey, can the United States leverage its 
relationship with Turkey, a NATO ally, to ensure that real 
peace is achieved?
    Ambassador Jeffrey. We think we can. You are referring to 
the Astana meeting that just failed early today. It failed in 
good part because Turkey would not yield to pressure from Iran 
and Russia to go along with essentially Damascus' vision of how 
the political process should end.
    Where we disagree with Turkey is we don't think that this 
particular format, the Astana format, that brings these three 
countries in as brokers between the UN----
    Mrs. Wagner. Right.
    Ambassador Jeffrey [continuing]. And the real audience of 
the UN in the resolution which says, UN, you talk to the 
opposition, you talk to the Damascus regime, and you work out a 
peace settlement. This Astana process has inserted itself 
between the two. We went along with that, we in the 
international community, for a year. It has failed. Russia 
signed up at the Presidential level in our last month to form 
this constitutional committee by the end of December. It does 
not look like that is going to happen now. It is time to move 
on, and I agree with you.
    Mrs. Wagner. It is time to move on. Thank you.
    I have run out of time.
    Ms. Ros-Lehtinen. Thank you, Madam Ambassador. Good 
questions.
    Mr. Schneider of Illinois.
    Mr. Schneider. Thank you very much, and thanks to both of 
you for joining us today.
    I have said this before here, as I look at Syria, there are 
three pillars of our interest there: Humanitarian, security, 
and strategic. Mr. Jenkins, your work on the humanitarian side, 
11 million people displaced, 5 million people provided medical 
care. Your words where you say--I am going to quote you--
whatever it takes to get the job done, is very much appreciated 
by us, and I hope the rest of the world has a chance to see 
what we are doing in that respect.
    But I am going to turn to you, Ambassador Jeffrey, and you 
talked about Iran--and we have raised the issue of Hezbollah 
and IRGC and other proxies, and you said it was an umbrella of 
which Hezbollah is at the top of the list. How big is that 
umbrella? Besides Hezbollah, what other groups are of major 
concern? Who should we have on our radar?
    Ambassador Jeffrey. First of all, all outside groups who 
are commanded by Iran and are supporting the Assad regime are 
of concern to us and to most of the Syrian people and to most 
of the neighborhood. But you have certain groups that have come 
in, Hazara groups from Afghanistan, other groups from Central 
Asia. You have certain Iraqi militias who have been active in 
the fighting, and Iran has recruited some Syrians as well. But 
the bulk of the people are from outside.
    Mr. Schneider. These militias that are taking their orders 
from IRGC, from Hezbollah, what is the commanding control?
    Ambassador Jeffrey. Ultimately, it is the Quds Force under 
Qasem Soleimani. And I want to emphasize, these people are 
outside of the chain of command of even the Syrian Government, 
bad as it is. The Russians work through the Syrian Government 
and through the regular army and normal institutions. The 
Iranians, common to their strategy in Iraq, we have seen it in 
Lebanon, we have seen it in Yemen, try to create parallel 
institutions that are loyal to and get their orders from Tehran 
rather than from their own fellow countrymen and own 
governments. That is another way that they insidiously 
infiltrate into other states.
    Mr. Schneider. Exactly. But I think it is the insidiousness 
of Iran that makes it such a challenging threat. If you look 
over the last 2 years, how has Iran's position changed over the 
last 2 years, and can you cite any strategies we have 
implemented, any tactics that have successfully diminished 
their position?
    Ambassador Jeffrey. Ending the JCPOA has been a dash of 
cold water to Iran in all of its efforts through the region in 
two ways. First of all, it stripped from it its legitimacy as a 
trusted partner in international affairs and international 
agreements, at least from our standpoint. Secondly, and most 
importantly, it has robbed of Iran, particularly with the 
beginning of the oil sanctions under the NDAA at the beginning 
of this month, major sources of finances for Iran to carry out 
its activities throughout the region.
    Mr. Schneider. But even with that, my understanding is the 
bases that were destroyed over the summer by Israel have been 
rebuilt. It was reported this week that Iran continues to 
invest in indigenous missile manufacturing in Syria and even in 
Lebanon.
    Are they getting stronger? Are they getting weaker? Are we 
at a status quo?
    Ambassador Jeffrey. In my conversations with the Israelis, 
and I have to be very general here, the Israelis are committed 
to doing what it takes to ensure that Iran does not threaten 
Israel from Syria. We support Israel in this endeavor 100 
percent. We have made that clear to the Russians. The Israelis 
will have to speak to that themselves. When they feel they need 
to act, I am confident they will act.
    Mr. Schneider. I appreciate that, because Iran on Israel's 
border is an existential threat, but U.S. Forces are north and 
east of the Euphrates, hundreds of kilometers away. What 
leverage are we demonstrating? What effective paths have we 
shown that we can put pressure, exert pressure on Iran to move 
them away from the border with Golan, to move them away from 
supporting these proxy militias and getting them out of the 
country? Do we have any successes so far?
    Ambassador Jeffrey. Again, we talked to the Russians about 
the necessity of achieving the withdrawal of all foreign forces 
from 2011 on, and while that involves all forces who are now 
present from the outside other than the Russians who were there 
before, we have particularly stressed the problem of Iran. At 
times, the Russians seem to be interested in talking about 
solutions that would involve the withdrawal of foreign forces. 
At times, they don't get concrete----
    Mr. Schneider. Let me grab my last few seconds here, 
because you mentioned earlier in one of the Q&As that the 
President talked to Mr. Putin in Helsinki. Can you share with 
us, what did they talk about? What was agreed to vis-a-vis 
Syria specifically, and more specifically, what we can do to 
get Iran out of Syria?
    Ambassador Jeffrey. The President made clear, essentially, 
the policies that I have outlined here today.
    Mr. Schneider. Are there any notes from that? I know this 
committee has asked for that information, what was said in 
Helsinki, what promises were made, what agreements or tentative 
agreements might have been laid out?
    Ambassador Jeffrey. I think I will stay with the President 
made clear what our policies on Syria are. I don't think any 
agreements related to Syria came out of that meeting.
    Mr. Schneider. Okay. I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Schneider. 
Excellent questions.
    And now I am pleased to yield to Mr. LaHood, who is not on 
our subcommittee but has always been very interested on this 
issue.
    Thank you, Mr. LaHood. You are recognized.
    Mr. LaHood. Well, thank you, Madam Chair, and I appreciate 
you granting me a temporary VISA to be here today. And I echo 
the comments of my colleagues regarding your service here in 
Congress. Your energy, your voice, your optimism will be missed 
here in Congress. So thank you for all your work.
    Ambassador Jeffrey, I can't tell you how pleased a lot of 
us were that the President picked you and Secretary Pompeo 
picked you for the Syrian position for Syrian engagement. I 
think it brings a lot of credibility to the issue, so thank you 
for your service on this.
    I want to just talk a little bit or get your thoughts on 
Lebanon. Obviously, there are so many intertwining political 
and security issues that relate to Lebanon. I look on the 
positive side in Lebanon. We just had free and fair elections 
in May with a new election law that was free of controversy, no 
protests. We had a Cedar conference that pledged $12 billion to 
Lebanon, which is positive. The LAF continues to cooperate with 
American forces and American intelligence, and it has been 
seamless with General Aoun in charge of the Lebanese forces. 
Obviously, I think we have one of the best ambassadors in the 
world there with Ambassador Richard, and so those are the 
positive things.
    However, I look at the concerns and the challenges in 
Lebanon. Can't form a government after 7 months now. We have 
over 1 million refugees in Lebanon from Syria that continue to 
put stress and anxiety and uneasiness on the Lebanese 
infrastructure, everything from education to transportation to 
the government. Obviously, Hezbollah continues to flex its 
muscle in Lebanon. It is part of the reason we have not been 
able to form a government there, and that concerns me. And then 
also the pawn that Lebanon plays between the Sunni-Shia chess 
game in the Middle East.
    But I would be curious on your thoughts on the 
relationship, particularly on the refugees. I know we have 
started to see some refugees go back, but hasn't been fulfilled 
to the level we need there.
    Ambassador Jeffrey. Thank you very much, and welcome to the 
subcommittee, Mr. Congressman.
    I am in agreement with acting assistant secretary and good 
friend David Satterfield to only talk about Syria, so I have to 
be careful in talking about Lebanon. Now let me talk about 
Lebanon, and I will do it from the standpoint of my focus in 
Syria, much of which is Iran.
    The two major problems you cited of all three, Sunni-Shia 
conflict, Hezbollah, and refugees, I see Iran flashing before 
my eyes when you mention all three of them. Lebanon is a victim 
of Iran's encroachment throughout the Arab world as much as 
Syria is, although not to the same horrific degree, just as 
Lebanon previously was a victim of Syria's aggression as Syria 
was more expansionist than it is today because it has been tied 
up in a civil conflict, but tomorrow it could be back doing the 
same sort of thing.
    So we have--and when I look at Lebanon, I see a Syria-Iran 
problem. That is simplifying things, but again, I have to keep 
my Syria focus level. If we can fix Syria and fix the Iranian 
expansionism, we are in a much better place with Lebanon.
    In terms of the refugees, our position is clear. We do want 
refugees to go home, but refugee return has to be voluntary, it 
has to be safe, it has to be dignified, and they have to go 
back to areas where we believe in getting information from the 
UNHCR and others and putting that all together are safe for 
them to go back to. There is very little of that in Syria, 
particularly in the Assad-held areas. These people, in many 
cases, want to go back to their homes, but they do not want to 
live under Assad's tyranny. That is the underlying problem.
    Mr. LaHood. Can you just elaborate a little bit further on 
that, the de-escalation zones or proposed de-escalation zones, 
what is your opinion on whether they are safe? And it seems to 
be that the hurdles and the hoops to go through to bring these 
refugees out of Lebanon back, you know, seem unattainable at 
this point. But maybe comment a little bit about the de-
escalation zones and whether those are possible to bring people 
back.
    Ambassador Jeffrey. Certainly. The de-escalation--there is 
only one de-escalation zone left, which is Idlib. But the areas 
where the Turks are in the northeast of the country have seen a 
certain return of refugees to the tune of some tens of 
thousands over the past 6 months to a year. We have seen a 
smaller return of refugees to the northeast where we are. And 
again, there has been some return of our refugees into Assad-
held areas. But of the something like 5\1/2\ million refugees 
who have left Syria, we have only seen in the tens of thousands 
return to Assad. So people are voting with their feet, 
specifically not moving with their feet.
    Mr. LaHood. Yeah. Thank you, Madam Chair, for your courtesy 
and flexibility in letting me been here. Thank you.
    Ms. Ros-Lehtinen. Thank you so much, Mr. LaHood.
    I have one question, if I could, for Mr. Jenkins. In my 
opening remarks, I mentioned the recent diversion of U.S. 
Humanitarian assistance to terrorist groups in Syria's 
northwest area. And I would like to give you an opportunity to 
explain exactly what happened and what was USAID's response to 
this incident and others we have heard about. What is the 
status of our humanitarian aid programs there?
    And I totally understand this is a war zone. You are trying 
to deliver humanitarian aid. This is not the best situation. So 
I don't want you to think that we are second-guessing, but 
there is some concern about it going to the very people we want 
to defeat.
    Mr. Jenkins. Well, thank you for that, and thank you for 
your understanding, but we welcome the second-guessing because 
it is a difficult situation, and we need everyone from Congress 
to our State Department and other AID colleagues.
    You mentioned our Office of Inspector General and the 
reporting they did this year. You mentioned the fiscal year 
2016 GAO report. All of that is helpful for us because we need 
as much help as we can working with our partners to double down 
and do everything we can. And we are committed to doing this, 
doing everything we can to prevent fraud, waste, abuse, and 
diversion of U.S. Taxpayer dollars. We have a zero tolerance 
policy. There is no acceptable amount of diversion as a cost of 
doing business. We don't go there.
    So if you would look at what happened, which you were 
referencing in your statement, it was actually--it is very 
illustrative. It was our third-party monitors paid for USAID's 
third-party monitors that originally found what we thought was 
possible fraud.
    Ms. Ros-Lehtinen. Just to clear that up, the third-party 
monitors means that you contract with----
    Mr. Jenkins. A group that its only job is to look at our 
other partners and find out if they are doing their job the 
right way. We also have our partners themselves----
    Ms. Ros-Lehtinen. Just to be clear.
    Mr. Jenkins. Yeah.
    Ms. Ros-Lehtinen. And those groups would be Syria-based 
with Syrians, Syrians controlling it, or outside folks and they 
control it?
    Mr. Jenkins. Those are----
    Chairman Ros-Lehtenin. Is it a UN organization or who--give 
me a sense of who those third parties would be.
    Mr. Jenkins. In this case, it is a third-party--it is a 
contractor who has a contract. They are all Syrians inside the 
country. One of the challenges about Syria is all of these 
people are inside and we are forbidden from getting in and 
actually looking at it. So what we tend to do is try to 
triangulate and put as many different levels of different eyes 
on the situation as possible, so if someone misses it, someone 
else catches it.
    Our partners themselves have their own third-party monitors 
as well. So what happened about a year ago is one of these 
third-party monitors thought that there was a problem that HTS 
was diverting or getting USAID assistance. They reported it to 
the NGO, to us, and to the IG, inspector general, all at the 
same time. By February, we found out that things actually were 
happening, and we immediately suspended and ended those 
programs.
    Now, in the northwest, that is--we now have three. That was 
one of the three programs that we have suspended. We do not 
wait for the IG to come back with their findings. We 
immediately suspend while people investigate.
    What we have now put in place over the course of 7 years as 
we have had to deal with different iterations in this difficult 
kinetic environment is we now have the most comprehensive, 
rigorous, detailed mitigation mechanisms, mitigation measures, 
and safeguards in place than we do anywhere else in the world. 
And every time one of these unfortunate incidents comes to 
light, we use that to inform all of our other partners on how 
we have to up our game yet again.
    Ms. Ros-Lehtinen. Those are comforting words, and we 
realize how difficult it is, but we have got to give the 
American people a sense that their tax dollars are being used 
always in the right way. And I am glad you say there is not a 
little line that you write off the cost of doing business. That 
is not acceptable.
    Mr. Jenkins. Never. Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Jenkins.
    Mr. Deutch.
    Mr. Deutch. Thanks.
    Mr. Jenkins, I will also--just to finish up with you, we 
have had this hearing, and we talk about Iran and we talked 
about Russia and Iran's proxies and the various ways that we 
are trying to figure out how Iran can get pushed out. Can you 
just take a step back for a second?
    You gave us some statistics, over 11 million people who 
fled or have been internally displaced. Can you take a step 
back further and just remind us, and for the members of this 
committee, for the American people, what Saddam--what Assad has 
wrought on his people, the overall toll that this has taken on 
the country?
    Mr. Jenkins. Thank you. You just want to see me cry again.
    Mr. Deutch. No, Mr. Jenkins, you know, I would like--I 
don't--I am not saying this is what it takes, but I would like 
more people to be more emotional about what is happening in 
Syria. That is what I would like.
    Mr. Jenkins. So I am from Pasadena, California. The Rose 
Bowl's a big deal there. Fill the Rose Bowl five times, kill 
everybody. That is at least how many people have died. At least 
500,000 people.
    Think about what it is to have 11.3 million people 
displaced, many of them many times. 5.6 of those made the very 
difficult decision to leave the country and become refugees, 
right. We are talking about all the people of New York City and 
all the people of Chicago displaced probably forever.
    I met with two amazing, courageous doctors who were married 
a few weeks ago. Some of you probably met them at the Syrian-
American Medical Society, the last two doctors left in Aleppo 
who got out barely with their lives and their 12-year-old 
daughter. They could have left. In fact, they come here to talk 
to us, but they choose to go back. And they are working in 
Idlib now, and they are afraid they don't have a way to take 
their daughter out if they have to get out.
    So they are there, taking their own blood in the middle 
of--because there is not enough blood for patients during 
surgeries, so the doctors and the nurses are doing their own 
transfusions. That is terrible. And when we look at why do we 
take the risk that there might be diversions, it is because 
that situation is exactly where the United States Government 
should be spending, spending wisely, U.S. Taxpayers' dollars as 
an extension of our values, as extension of our principles, and 
because it is the right thing to do. Thank you.
    Mr. Deutch. Mr. Jenkins, the work that you and your 
colleagues do is the manifestation of those values, and we are 
grateful for it.
    Ms. Ros-Lehtinen. Thank you.
    And I will just say in closing, as chairman of this 
subcommittee for the past 6 years, it has broken my heart, it 
has broken Mr. Deutch's heart, to see what has happened in 
Syria. We have seen this unfold. And with this hearing, the 
last that I will hold on Syria, I know that the oversight of 
our policy will be in more able hands. And the pressure on you 
and the responsibility on you is enormous, and I hope that you 
carry that weight with you and that heart with you and make all 
the right decisions for all the right reasons.
    And I encourage all of our colleagues, we both do, to give 
the attention to Syria that it deserves. Syria is too 
important, and we have got to use every tool at our disposal to 
achieve an enduring defeat of ISIS, to get Iranian forces out 
of Syria, and finally, give the Syrian people the peace that 
they deserve, the democracy that they deserve, the freedom that 
they deserve without Assad, and may it happen. And thank you so 
much.
    Thank you, Mr. Deutch.
    And with that, our subcommitteeis adjourned. Thank you, 
ladies and gentlemen.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               

Material submitted for the record by the Honorable Theodore E. Deutch, 
         a Representative in Congress from the State of Florida
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
